 




June 28, 2013

The Honorable Darrell Issa, Chairman
Committee on Oversight and Government Reform
United States House of Representatives
2157 Rayburn House Office Building
Washington, D.C. 20515‐6143

Dear Chairman Issa:

Thank you for your letter of June 17, 2013, requesting that the Government Printing
Office (GPO) Office of Inspector General (OIG) provide information on the status of
open and unimplemented recommendations. Specifically, you requested the following:
(1) the number of open and unimplemented OIG recommendations; (2) cumulative
estimated cost savings associated with current number of open and unimplemented
recommendations; and (3) our three most important open and unimplemented
recommendations.

Recommendations result from audits, evaluations, investigations, inspections, and other
reviews pursuant to the GPO Inspector General Act of 1988, title II of Public Law 100-
504 (October 18, 1988). Cost savings were based on questioned costs, unsupported
costs, funds put to better use, and other monetary impact.

1. Number of Open and Unimplemented Recommendations

As of May 1, 2013, there were a total of 101 open recommendations related to 25 audit
or assessment reports. Fifty of the 101 open recommendations were made in Fiscal
Year 2013 and GPO is working on corrective action plans to address each
recommendation.

2. Open Recommendations with Estimated Cost Savings

As of May 1, 2013, we identified relevant open recommendations, which were included
in five audit reports. The recommendations carry an estimated monetary benefit or cost
savings totaling $4,737,400. See below for the detailed information on the
recommendations.




                                                                                           
The Honorable Darrell Issa, Chairman
House Committee on Oversight and Government Reform
June 28, 2013
Page 2 of 5 


   OIG Report: Maintaining Effective Control over Employee Overtime,
    Report No.12-08, March 30, 2012. (Funds Put To Better Use: $2,967,176)

    We recommended modifying Directive 640.7D, “General Pay Administration,” dated
    April 2008, requiring that supervisors obtain approval before asking employees to
    work overtime.

    GPO agreed with the recommendation and is in the process of taking action to close
    the recommendation.

   OIG Report: Selected Aspects of GPO Time and Attendance and Payroll
    Administration, Report No. 12-01, November 16, 2011. (Funds Put To Better Use:
    $372,717)

    We recommended that GPO modify Directive 640.7D, “General Pay Administration,”
    dated April 2008, to require overtime-authorizing officials ensure that any authorized
    overtime does not exceed the bi-weekly pay cap.

    GPO agreed with the recommendation and is in the process of taking action to close
    the recommendation.

   OIG Report: GPO Faces Challenges With Current and Former Employee
    Indebtedness, Report No. 13-02, March 27, 2013. (Funds Put To Better Use: $245,105)

    We recommended that GPO revise the employee separation procedures by
    informing employees that the failure to complete and submit the employee checkout
    form may result in the withholding of any final payments due the employee.

    We also recommend that GPO (1) establish and implement a process for
    periodically monitoring NFC’s collection activities associated with employee
    indebtedness that will ensure collection activities are achieving the intended results,
    and (2) update all pertinent standard operating procedures and/or Directives to
    provide guidance to staff regarding the transfer of employee debt greater than 180
    days to Treasury for debt servicing or develop a process to provide similar servicing
    activities by GPO, to maintain adequate supporting records for all employee debts,
    and to withhold the final paycheck of all departing employees who are in debt to the
    Agency.

    GPO agreed with the recommendations and is in the process of taking action to
    close the recommendations.




                                                                                               
The Honorable Darrell Issa, Chairman
House Committee on Oversight and Government Reform
June 28, 2013
Page 3 of 5 


   OIG Report: Management Oversight: Federal Employees’ Compensation Act
    Operations, Report No. 13-01, January 15, 2013. (Funds Put To Better Use: $267,162)

    We recommended that GPO further strengthen FECA operations by developing
    procedures and a standardized program-wide monitoring process to routinely
    monitor adherence to FECA requirements such as: (1) updating the marital status of
    claimants, (2) evaluating continued eligibility of the claimants dependents, (3)
    seeking opportunities to place claimants on a modified, limited, or light duty
    assignment, (4) receiving medical updates on a regular basis, and (5) obtaining
    second medical opinions where the record indicates the claimants has some
    potential of eventually returning to work, (6) responding to requests for vocational
    training, and (7) requesting employees be included in OWCP’s Assisted
    Reemployment program.

    We also recommended that GPO strengthen business unit supervisors
    understanding of their responsibilities under FECA by developing and implementing
    a formal training program.

    Furthermore, we recommended expanding the use of information technology to
    administer the program such as the use of DOL’s Employees’ Compensation
    Operations and Management Portal electronic software.

    GPO agreed with the recommendations and is in the process of taking action to
    close the recommendations.

   OIG Report: Opportunities Exist to Reduce Costs Associated with Oracle Software
    Licensing, Report No. 13-06, March 15, 2013. (Funds Put To Better Use: $885,240)

    We recommended that GPO mitigate risks of potentially investing in duplicative
    licenses by (1) developing and implementing processes, policies and procedures to
    address goals and objectives of software license management program, (2)
    conducting an assessment of the current Oracle software licenses and Oracle
    products vs. GPO requirements to determine the correct license and product mix
    and make the necessary adjustments, and (3) revising the current inventory listing to
    include a crosswalk from major Oracle COTS software products to GPO
    applications.

    GPO agreed with the recommendations and is in the process of taking action to
    close the recommendations.




                                                                                             
The Honorable Darrell Issa, Chairman
House Committee on Oversight and Government Reform
June 28, 2013
Page 4 of 5 


3. Three Most Important Open and Unimplemented Recommendations

To determine the three most significant open recommendations, keeping in line with the
OIG Strategic Plan, we assessed whether the recommendation would assist GPO’s
transformation to a digital platform or improve program and operational integrity. Using
these criteria, we identified the following three recommendations.

                                            Open Recommendation                              OIG Report
                        
 Assist GPO’s          To enhance the utility and maturity of GPO’s Enterprise           Enhanced
                       Architecture, we recommend GPO:                                   Architecture Maturity
 Transformation to                                                                       Could Better Guide
 a Digital Platform    1. identify, develop, and implement a framework to evolve         GPO’s
                          GPO’s Enterprise Architecture and its use to support           Transformation,
                          GPO’s transformation and optimization;                         Report No. 12-19,
                       2. reevaluate, modify if necessary, GPO Directive 705.31,         September 28, 2012.
                          “GPO Enterprise Architecture Policy” and reestablish and
                          convene the Architect Review Board; and
                       3. ensure the FDsys architecture is aligned with GPO’s
                          Enterprise Architecture.

                       Status: GPO is in the process of taking action to close the
                       recommendations.

 Program and               To strengthen controls over employee overtime, we             Maintaining Effective
 Operational               recommended GPO:                                              Control over
                                                                                         Employee Overtime,
 Integrity                 1. modify GPO Directive 640.7D to require supervisors to      Report No. 12-08,
                              obtain prior approval of his or her designated             March 30, 2012.
                              management official before asking employees to work
                              overtime;
                           2. reiterate GPO’s requirement to approve overtime
                              request prior to employees working overtime; and
                           3. establish a process to monitor compliance with the
                              Directive.

                           Status: GPO is in the process of taking action to close the
                           recommendations.




                                                                                                          
The Honorable Darrell Issa, Chairman
House Committee on Oversight and Government Reform
June 28, 2013
Page 5 of 5 

                                        Open Recommendation                                   OIG Report

 Program and         We recommended that GPO further strengthen FECA                     Management
 Operational         operations by developing procedures and a standardized              Oversight: Federal
                     program-wide monitoring process to routinely monitor                Employees’
 Integrity           adherence to FECA requirements such as: (1) updating the            Compensation Act
                     marital status of claimants, (2) evaluating continued eligibility   Operations, Report
                     of the claimants dependents, (3) seeking opportunities to           No. 13-01, January
                     place claimants on a modified, limited, or light duty               15, 2013.
                     assignment, (4) receiving medical updates on a regular basis,
                     and (5) obtaining second medical opinions where the record
                     indicates the claimants has some potential of eventually
                     returning to work, (6) responding to requests for vocational
                     training, and (7) requesting employees be included in
                     OWCP’s Assisted Reemployment program.

                     We also recommended that GPO strengthen business unit
                     supervisors understanding of their responsibilities under
                     FECA by developing and implementing a formal training
                     program.

                     Furthermore, we recommended expanding the use of
                     information technology to administer the program such as the
                     use of DOL’s Employees’ Compensation Operations and
                     Management Portal electronic software.

                     Status: GPO is in the process of taking action to close the
                     recommendations.

We continue to work closely with managers at GPO to improve operations and maintain
a long-standing record of excellence in delivering a world-class service to our Nation.
We appreciate GPO’s responsiveness to our findings and recommendations and its
commitment to prompt corrective actions when needed. We would especially like to
note that Senior Managers continue to be actively engaged in working with the OIG to
enhance awareness of and involvement in closing OIG recommendations.

If you have any questions or need further information, please contact me at
(202) 512‐0039.

Sincerely,



Michael A. Raponi
Inspector General


cc: The Honorable Elijah Cummings, Ranking Member



                                                                                                         
